0

BECKER GALLAG HER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief in Support of Certiorari in 191257, Mark Brnovich, in His Official Capacity as
Arizona Attorney General, et al. v. Democratic National
Committee, et al., were sent via Next Day Service to
the U.S. Supreme Court, and e-mail to the following
parties listed below, this 28th day of July, 2020:
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington , DC 20001
(202) 879-7643
macarvin@j onesday.com
Counsel for Arizona Republican Party, et al.
Jessica Ring Amunson
Sam Hirsch
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington , DC 20001-4412
(202) 639-6000
JAmunson@ jenner.com
SHirsch@je nner.com
Counsel for Katie Hobbs, in her official capacity as
Secretary of State of Arizona

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Frankl in Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Marc E. Elias
Perkins Coie LLP
700 Thirteenth Street N.W.
Suite 800
Washington, DC 20005-3960
(202) 654-6200
MElias@perkinscoie.com
Daniel C. Barr
Perkins Coie LLP
2901 N. Central Ave
Suite 2000
Phoenix, AZ 85012
(602) 351-8000
Counsel for Respondents
Oramel H. (O.H.) Skinner
Solicitor General
Counsel of Record
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
o.h.skinner@azag.gov
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 28, 2020.

0

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

~

[seal]

•

